CERTIFICATE OF SERVICE
I tommy Lee Rutledge, do hereby declare under penalty of perjury, pursuant to
28 U.S.C. ยง 1746, that I have mailed the original of this petition to the clerk
of the Supreme Court of the United States, and a companion copy of it to the
solicitor General for the United States, properly addressed, with proper postage
prepaid, and affixed thereto, on the __day of August 2021. I have delivered
said mailings to the mail room of the Medical Center for Federal Prisoners,
Springfield, Missouri, in accord with instructions in Houston v. Lack. 487 us
266 (1988). And is, therefore, deemed to have been filed with the Office of the
Supreme Court Clerk on this date.

Date:

Tommy Lee Rutledge
Declarant/Pe titioner

Tommy Lee Rutledge
08829-026, Unit 3-1
Medical Center for Federal Prisoners
P.0. Box 4000
Spring, Mo 65801-4000

(14)

A

Additional material
from this filing is
available in the
Clerk's Office.

